<html>
<title> - KARSHI-KHANABAD: HAZARDOUS EXPOSURES. AND EFFECTS ON U.S. SERVICEMEMBERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  KARSHI-KHANABAD: HAZARDOUS EXPOSURES
                   AND EFFECTS ON U.S. SERVICEMEMBERS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 27, 2020

                               __________

                           Serial No. 116-94

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                       Available on: govinfo.gov,
                            docs.house.gov or
                           oversight.house.gov
                           
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-932 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                           
                           
                           
                           
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
              Daniel Rebnord, Subcommittee Staff Director
                   Matthew Patane, Professional Staff
                     Joshua Zucker, Assistant Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2020................................     1

                               Witnesses

Mr. Paul B. Widener Jr., K2 Veteran, Retired Master Sergeant, 
  U.S. Air Force
Oral Statement...................................................     5
Mrs. Kim E. Brooks, Spouse of Lieutenant Colonel Timothy Brooks, 
  U.S. Army
Oral Statement...................................................     7
Mr. Scott W. Welsch, K2 Veteran, Retired Chief Warrant Officer 2, 
  U.S. Army
Oral Statement...................................................     8

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Statement from Douglas Wilson; submitted by Chairman Lynch.

  * Statement from Mark Jackson; submitted by Chairman Lynch.


 
                  KARSHI-KHANABAD: HAZARDOUS EXPOSURES.
                   AND EFFECTS ON U.S. SERVICEMEMBERS

                              ----------                              


                      Thursday, February 27, 2020

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 12:33 p.m., in 
room 2247, Rayburn Office Building, Hon. Stephen Lynch, 
presiding.
    Present: Representatives Lynch, Grothman, Welch, Hice, and 
Green of Tennessee.
    Mr. Lynch. This subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of this committee at any time.
    This hearing is entitled, ``Karshi-Khanabad: Hazardous 
Exposures and the Effects on U.S. Service Members.''
    I now recognize myself for five minutes for an opening 
statement.
    It has now been nearly two decades since the United States 
came under attack on September 11, 2001. For all of us who 
remember that fateful day, the images of planes crashing into 
the World Trade Center, the Pentagon, and Shanksville, 
Pennsylvania will forever be seared in our memories.
    It is also important to remember that in the weeks and 
months that followed our Nation deployed tens of thousands of 
our active military and National Guard and Reserves. While tens 
of thousands of civilians also stepped forward to enlist in the 
military or join the State Department and other government 
agencies to serve our country.
    In total the United Stated deployed over 100,000 uniformed, 
service members to Afghanistan to take the fight to al-Qaeda 
and the Taliban to defend our homeland and bring those 
responsible to justice. Of particular note, to support our 
operations in Afghanistan, the United States established Camp 
Stronghold Freedom at Karshi-Khanabad Airbase in Uzbekistan, 
which is also known as K2. While K2 had been previously 
occupied by the Soviet Army during their incursions into 
Afghanistan during the 1980's, the base, which is about 100 
miles from the Afghan border became operationally and 
strategically critical to the Afghan mission from 2001 to 2005.
    It is important to note, especially for the purposes of 
this hearing that there is also evidence that K2 had been 
contaminated with various toxic chemicals and radiological 
hazards by its previous occupants, the Soviet Army. Service 
members who deployed to K2 reported seeing ``pond water that 
glowed green'' and ``black goo oozing from the ground.'' These 
hazards were reportedly caused by prior explosion at the 
missile storage facility, abandoned fuel, and other chemicals 
and sources of depleted uranium.
    Exposure to these hazards has also reportedly led to cancer 
and other health problems among K2 veterans. To make matters 
worse, despite the evidence and as many K2 veterans have come 
forward with various cancers, some in advanced stages, and 
other related health problems to seek assistance and 
acknowledgement of their illnesses, the V.A. has thus far 
repeatedly failed or refused to acknowledge their illnesses as 
service-connected disabilities.
    Today we will hear directly from some of those affected 
veterans and their families and about their difficulties in 
getting the V.A. to recognize their health conditions as 
related to their service at K2. In January, Chairwoman Maloney 
and I requested information from the Department of Defense and 
the V.A. about K2. So, far the responses from both departments 
have been far below the standard that we should expect and that 
these veterans and their families deserve.
    To date DOD has yet to provide any of the documents we 
asked for and has instead told the committee it would provide a 
more detailed response in three months. That is three months 
that K2 veterans, including those suffering from cancer will be 
kept waiting. Waiting for answers. In addition, the only 
document the V.A. produced to the committee is a publicly 
available health assessment from the United States Army. While 
preliminary, even that report recognizes that there were 
statistically higher instances of cancer among K2 veterans and 
stated that its results, ``May motivate further 
investigation.''
    In addition, earlier this week I was joined by my colleague 
from Tennessee, Representative Green, to introduce a bill that 
would direct the Secretary of Defense to study toxic exposures 
among K2 veterans and direct Secretary of Veterans Affairs to 
establish a registry regarding those exposures. I want to thank 
the gentleman of--from Tennessee for his courageous service to 
our Nation and for working with me on this critical, important 
issue.
    I was fortunate to meet with two of our witnesses a few 
weeks ago when they came to Washington, DC. to advocate on 
behalf of those who had served at K2. Their stories were heart 
wrenching, but also, I think, reflect the patriotism and the 
strength of the human spirit that exists in the hearts of our 
veterans and their families.
    There were stories of U.S. service members, who after this 
Nation was attacked, deployed bravely to K2 to support 
Operation Enduring Freedom. There were stories of men and women 
in uniform dedicated to their mission and of patriots committed 
to serving their country. Yet their stories and the stories of 
other veterans who served at K2 are also extremely troubling, 
too often because of how they end with a life-changing 
diagnosis and unanswered questions from their government.
    Unfortunately, we have seen this pattern play out before 
from Agent Orange in Vietnam to military burn pits in Iraq and 
Afghanistan. This is not the first time the V.A. has initially 
refused to acknowledge certain health conditions as connected 
to military service, only to have those judgments overruled and 
a presumption of service-connected disability established when 
additional information emerged.
    To our witnesses, I want to thank you for being here today, 
once again, to share your experiences. We want to get to the 
bottom of what you, your families, and your brothers and 
sisters in uniform have already experienced and continue to 
struggle with to this day. One last thing before I close. To 
any veterans who served at K2 or their families, if you have 
got concerns about your health, the care you have received, or 
want to share information with this committee about your 
experience at K2, please reach out to myself or my staff at 
202-225-5051. Again, 202-225-5051.
    That information will get to myself and our colleagues at 
both sides of the aisle. We intend to continue to investigate 
this issue to ensure we fulfill this Nation's promise to our 
service members and their families. I now yield to my friend, 
the Ranking Member, Mr. Hice of Georgia, for his opening 
statement.
    Mr. Hice. Thank you very much, Mr. Chairman, and I 
appreciate you holding this very important hearing.
    And for each of our witnesses, I want to thank you for 
taking time out of your busy schedules to come to Washington to 
share your stories. We deeply appreciate that. Your hard work 
to try to make a difference is greatly appreciated. We welcome 
you here. I want to assure each of you that we hear you and we 
are taking this issue very seriously and want to address it 
appropriately and as quickly as possible.
    I will be brief in my remarks because I really want to hear 
your stories. But it is worth noting, Mr. Chairman, that I 
really believe that we are in a unique opportunity right now, 
particularly in the partisan environment that we are watching 
here in Congress right now to come together on an issue like 
this and to work together to solve this problem. So, again, I 
thank you for holding this hearing.
    It is alarming to read the stories from our witnesses and 
the stories described in the McClatchy Investigation. It is 
quite alarming. In the fall of 2001, after the horrible attacks 
of September 11th on our homeland, we deployed troops to K2 
Airbase in Uzbekistan in preparation for the invasion of 
Afghanistan.
    Unfortunately, as the chairman has already mentioned, the 
efforts that led up to that exposed our men and women in 
uniform to toxic and dangerous chemicals. And when you hear the 
stories of ponds turning green and black sludge pooling in 
tents, even contaminated soil being used to fill sandbags in 
hopes of rectifying the problem, it is just rather mind-
boggling and chilling to all of us who hear and read these 
kinds of stories.
    In the years since then, as we can all imagine, there have 
been innumerable reports of illnesses, cancers, death, and so 
forth among these service members. In fact, sadly there's been 
more than 300 self-reported cases of cancer. Literally, and I 
don't say this flippantly, I pray for those families and those 
service members for speedy recovery, full recovery, and I 
encourage others to do the same.
    But today, I hope that we can get a better understanding 
here in this hearing of what you saw, what you experienced, and 
what you've been through since that time. This past January, as 
the chairman mentioned, he and Chairwoman Maloney wrote letters 
to the Departments of Defense and Veterans Affair, asking for 
more information, and it has been pretty dismal, the response.
    I am concerned with the vague answers that we received from 
the V.A., unhelpful answers. But they did indicate, and I am 
not sure exactly what it means, that they have attempted to 
start an analysis. Yes, I think that can be good news, but it 
is certainly is too little, too late for too many of our 
service men and women.
    So, I hope that the Department of Defense will have more 
productive response and that we can get to the answers that 
each of you need and so many others need. Last year we saw 
Congress take a step forward in helping our veterans, who were 
negatively affected by burn pits that were used to dispose of 
toxic waste. In that case, Congress mandated that the 
Department of Defense provide a list of all the burn pit sites 
to the V.A. And, of course, in so doing that took a lot of the 
burden off of individuals.
    We need something similar in this case. The V.A. told the 
committee that the Department of Defense transferred a roster 
of all the service members who served at K2. That's a good 
start, but we can't stop there. These men and women who served 
at K2 should be notified and they also should be provided 
specific tests at the V.A. Medical Centers nearest them.
    Earlier this month the Secretary of Veterans Affairs, 
Robert Wilkie, did acknowledge that the men and women at K2 may 
have been exposed to toxic substances. I want to give a quote 
that he made. He said, ``Those who have been exposed to 
something at K2, be it Blue Water Navy veterans, be it those 
who still suffer the impacts of Agent Orange, come and see us. 
File the claims. Come speak to us. This is not your 
grandfather's V.A., where the paperwork is going to last 10 
years. We have people ready to help. That is the message I give 
to K2.''
    That is encouraging to hear. At least he is wanting the 
V.A. to step up and address this issue straight up. But based 
on at least my understanding, that is not the current reality 
of what our veterans are experiencing at the V.A. So, it is our 
job as Congress to fight for the American people. That is who 
sent us here and that is what we are here to do. And what 
better reason for us to act and help our men and women who 
served our country in the most dangerous regions of the world 
and put their lives on the line.
    So, again, I want to thank you for being here.
    And thank Representative Green for being here who. He also 
has a story and an experience there.
    Mr. Chairman, to you as well, thank you for holding this 
hearing. I yield back.
    Mr. Lynch. The gentleman yields back. At this time I would 
like to welcome our witnesses officially. Today we are joined 
by Paul B. Widener, Jr., a K2 veteran, retired Master Sergeant, 
United States Air Force; Kim E. Brooks, spouse of Lieutenant 
Colonel Timothy Brooks, United States Army; and Scott Welsch, a 
K2 veteran, and retired Chief Warrant Officer, United States 
Army.
    It is the custom of this committee to ask witnesses to be 
sworn. Could you please rise and raise your right hand? Do you 
swear or affirm that the testimony that you are about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    [Witnesses are sworn.]
    Mr. Lynch. Please be seated. Let the record show that the 
witnesses answered in the affirmative.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your written statements will be 
made part of the record. With that, Master Sergeant Widener, 
you are now recognized to give an oral presentation of your 
testimony.

 STATEMENT OF PAUL B. WIDENER, JR., RETIRED, MASTER SERGEANT, 
                    UNITED STATES AIR FORCE

    Mr. Widener. Thank you Mr. Lynch. We'd like to thank you 
Chairman Lynch and distinguished members of the committee for 
inviting me to testify.
    My name is Paul B. Widener, Jr., Master Sergeant, United 
States Air Force, Retired. I am here as a Special Operations 
veteran of Operation Enduring Freedom. I deployed five times, 
serving 22 months in total. I come before you to plead for you 
to correct the failure of the DOD and the Department of 
Veterans Affairs to safeguard an act for the health interest of 
approximately 7,000 service members exposed to radiation and 
toxic conditions.
    Immediately after 9/11, I participated in the strategic 
planning for the initial phases of Enduring Freedom. We needed 
an air bridge into northern Afghanistan. Special Operations 
Mission Planners evaluated--evaluated all available detailed 
intelligence about K2. No radiation, NBC remnants, or any other 
form of contamination was identified at that time. K2 was 
selected as a deployment location for Special Ops and 
supporting conventional forces.
    It is essential to emphasize the linking of intelligence 
between agencies only occurred after OEF was well underway and 
part of that was a result of the 9/11 Commission. However, 
immediately into the deployment K2 personnel encountered 
dangerous, troubling conditions from radiation, toxic 
substances, and unknown contaminants. Environmental surveys 
were completed.
    Each time a new contaminant or hazard occurred in a 
different location; the finding was subsequently classified. 
There were troubling denials. They rationalized that--
rationalized that contaminant detection was a result of 
construction, paint fumes, vehicle exhaust, whether it was true 
or not.
    The DOD asserted that piling up contaminated, radioactive 
soil into a 35-foot-tall, earthen berm, which was originally 
built as a force protection measure, would somehow also serve 
to take and protect service members inside that berm from 
exposure to higher levels of radiation from the radiation field 
that literally was feet from the other side of the berm.
    Many fell ill while they were deployed. Headaches, vision 
problems, a wide variety of GI disorders, skin rashes, several 
literally had hair fall out in patches. My duty station was 
less than 10 feet from a shelter with known radiation 
contamination and nerve agent contamination. The DOD did not 
mitigate any risks within the work and living area at K2.
    One warm day in 2002 the entire 20th Special Forces group 
staff was incapacitated, requiring medical treatment. 
Investigation showed the presence of nerve agent in the 
aircraft shelter they were occupying coming up through the 
floor. Fearing denial of their cause of incapacitation, the 
20th Special Forces group tested the K2 compound in its 
entirety using their weapons of mass destruction experts for 
chemical and toxic agents.
    Testing revealed the presence of nerve agent, blister 
agent, a wide presence of cyanide, both in the compound, on the 
ground, and also within the water in the lavatories and in the 
toilets. Another false alarm we were told, but you can't go 
back into that--that you'd been in before, even though it was a 
false alarm.
    K2 members were told repeatedly that no significant risk 
from hazards existed. Asked about long-term effects, we were 
told long-term exposure to risks is unknown. Why did the DOD 
manufacture chemical agent and radiation danger and warning 
signs if there were no risks? In the very location Uzbek 
construction workers fell gravely ill and one--were unable to 
work due to toxic conditions, these same hazards remarkably 
disappeared when Americans occupied the exact same space. There 
were no briefings on toxic exposures, no protective equipment 
recommended, issued, or employed.
    Several doctors deploying to K2 wrote Nexus letters to warn 
home station health providers and document exposure to 
contaminants, but every doctor's letter and every post-
deployment health survey of service members documenting toxic 
exposure was removed from each member's DOD service medical 
record. There was no categorization of K2 as a hazardous duty 
location with radiation, chemical, and toxic agents, nor was 
the V.A. provided a list or hazards.
    The Deployment Health Control Center at Walter Reed Medical 
Center told the V.A. that no hazards existed. That K2 members--
however, K2 members cannot access testing for depleted uranium. 
We cannot access the Burn Pit Registry. We cannot access the 
Toxic Exposure Registry. And we can't be evaluated for 
radiation exposure.
    Despite Secretary Wilkie's assertion on February 5, 2020 at 
the National Press Club that Minority Member Hice said that 
Secretary Wilkie indicated we wouldn't have to wait for 10 
years, in fact, we've been waiting for 18 years. I'd like to 
quote from Secretary Wilkie, where he said, ``The V.A. is 
waiting and ready to help K2 veterans.'' But there is no access 
to care or service connection for exposure conditions when a 
member leaves active duty.
    Because we have not heard from the V.A. or the DOD in the 
past eight years, despite efforts from active duty special 
operators and the Stronghold Freedom Foundation, we are 
conducting a health survey approved by Dr. Omar Hamada. 
Completed surveys for 1,200 of 3,700 members of our K2 group 
indicate cancer rates at 14 percent. The incidence of brain 
cancer in our general population is 1 in 15,000. We have 
approximately 30 brain cancers in our cohort of 7,000 K2 
deployers so far. We are tracking over 20 separate disease 
processes. K2 group members have reported over 400 cases of 
cancer Since December 1919.
    Our nations' bravest warriors are sick and dying from their 
service at K2. According to Dr. Omar Hamada, 20th Special 
Forces Group Flight Surgeon and Dive Officer, significant 
cancer and health risks exist from the exposure at K2. There 
are K2 veterans who will not be kissing anyone at New Year's 
Eve this next year. They're going to be on the other side of 
the grave. We beg you to right this injustice. Ensure Operation 
Enduring Freedom Combat veterans receive the medical care they 
deserve related to or caused by toxic exposures and radiation 
they encountered while defending the cause of liberty and 
freedom. Thank you.
    Mr. Lynch. Thank you.
    Ms. Brooks, you are now recognized for five minutes.

   STATEMENT OF KIM E. BROOKS, SPOUSE OF LIEUTENANT COLONEL 
               TIMOTHY BROOKS, UNITED STATES ARMY

    Ms. Brooks. Thank you, Chairman Lynch and distinguished 
members of the committee for inviting me to testify.
    My name is Kim Brooks and I am here today because my 
husband, Lieutenant Colonel Timothy Brooks, can't be. He was 
deployed to Karshi-Khanabad, Uzbekistan in the wake of 9/11 and 
died of brain cancer in May 2004 at the age of 36. Because he 
was diagnosed on active duty we are one of the very few K2 
families to have received full DOD and V.A. benefits. I am here 
to ask, to plead really, that you do everything in your power 
to ensure that other K2 veterans and families receive the 
medical and financial support that they deserve.
    Tim arrived at K2 with the 10th Mountain Division in late 
2001. There he would wake in the morning with a thick layer of 
dust upon his face. He had no idea what the black gunk was that 
oozed up from the floor of his tent. He returned home, 
apparently, safe in spring 2002 and attended a post-deployment 
briefing. There they told him he had been exposed to some 
really bad stuff and asked him to sign a form acknowledging the 
exposure.
    Fourteen months after Tim returned home, we together sat at 
a pre-deployment ceremony for his battalion. They were headed 
to Iraq. Suddenly, he put his head in his hands saying that he 
felt ill. We barely made it through the gym doors before he 
collapsed. We soon learned that he had a stage 3 astrocytoma, 
which would quickly prove lethal. We were grateful for the 
treatment he had received, yet Tim had been angry. Angry to be 
so sick, so young, when he had so much living still to do.
    Suspecting toxic exposure at K2, we had asked about other 
K2 service members. Had any others fallen ill? We learned that 
20 to 23 K2 service personnel were being evaluated and treated 
for brain cancers and other neurological conditions at the 
time.
    Because my husband was on active duty, the military paid 
for all of his medical care--medical care and continued to pay 
his salary. We didn't have to worry about how we would afford 
treatment or how we would afford to live once Tim was no longer 
able to work. Sorry. We could focus on trying to save his life 
and on spending what little time we had left together. He died 
one year and one day after his diagnosis, Memorial Day weekend 
2004.
    Devastated, we left our Army home and moved to Norwood, 
Massachusetts. But I was far less scared than I might have been 
because I knew that I could rely on military and V.A. benefits, 
receiving V.A. disability and indemnity compensation, plus 
Social Security, continued Tri-Care, and V.A. education 
benefits in concert with my teaching salary meant that I had 
the financial means to raise my four children.
    They have grown into incredible adults, in no small part 
due to the financial and educational support we were fortunate 
to receive and the stability and opportunity that it had 
provided. Meghan is behind me. A Yale law graduate, she is a 
legal aid lawyer working with veterans. Brian graduated from 
Boston College and now works in the technology sector. John, a 
2018 West Point graduate, will deploy with the 2/508 Parachute 
Infantry Regiment out of Fort Bragg to Iraq this spring. And if 
I am honest, I am worried for his and his fellow soldiers' 
safety. Our youngest, Stephen, is set to play Georgetown--
football at Georgetown in the fall. I am so very proud of each 
of them.
    But I would now like to share the story of Debbora Benner 
and her two children, Zachary and Lily. Debby's husband, Master 
Sergeant John Benner, was at K2 around the same time as Tim 
and, like Tim, his health deteriorated after he returned home 
in 2002, yet John's stage 3 pancreatic cancer was not diagnosed 
until 2009, three years after he retired. He died February 15, 
2011. Had John and his doctors known the medical risks of 
exposure at K2, they might have caught his cancer sooner. 
Because John was diagnosed after he left service and because K2 
is not recognized as a toxic exposure site, his family does not 
receive DIC and cannot access educational assistance or most 
other V.A. survivor's benefits.
    This lack of recognition, of financial support, and of 
educational opportunity magnify their loss and have made it 
that much harder to heal. As it becomes increasingly clear that 
K2--K2 veterans have and will develop cancers and other 
toxicogenic conditions, Congress must act. It has been over 15 
years since we lost Tim, but it is newly devastating to learn 
that there are so many others going through the same pain and 
loss that my family did, without the support that they were 
promised when they decided to serve.
    K2 families and veterans deserve to know the full extent of 
what they were exposed to, so that they can focus on their 
health and plan for their futures. They deserve free healthcare 
monitoring to hopefully catch cancers and other illnesses 
before they become death sentences. When they get sick, and 
sadly it seems as many more have and will, they deserve full 
access to V.A. healthcare and benefits. They deserve 
presumptive service connection. I ask that you do everything in 
your power to ensure that they are not forgotten. Thank you. 
Thank you.
    Mr. Lynch. Thank you.
    Mr. Welsch, you are now recognized for five minutes.

STATEMENT OF SCOTT W. WELSCH, RETIRED CHIEF WARRANT OFFICER 2, 
                       UNITED STATES ARMY

    Mr. Welsch. I'm Chief--I'm Chief Warrant Officer 2, 
Retired, Scott W. Welsch of Lenexa, Kansas. I was on ground at 
K2 from July 9, 2002 to March 16, 2003 and was diagnosed with 
thyroid cancer in 2013. Thank you Chairman Lynch and 
distinguished members of the committee for giving me the 
opportunity to represent my fellow K2 veterans here today.
    I'm here to describe the toxic conditions that we faced 
there and the devastating effect that our exposure has had and 
will continue to have on our health. I'm here to ask that after 
almost 20 years of inaction, Congress, DOD, and V.A. does the 
right thing. Take care of K2 veterans and their survivors.
    I arrived at K2 in the early onset of the war on terror. We 
arrived to the base in a combat landing in the middle of the 
night. Out C17 landed in darkness and we unloaded our gear 
under the--under the guise of night. We were assigned living 
quarters of six-man tents. The entire area was surrounded by a 
large dirt berm. The dirt berm was created from Earth, pushed 
from the inside of the camp. Guard shacks were set up on top of 
that berm. The guard shacks were manned 24/7 by lower, 
enlisted, assigned guard duty.
    There were rumors floating around that contaminants existed 
on the base. There were signs posted that stated, keep out, 
chemical agents. There were ponds that glowed green. All of 
these were literally feet from where we lived, worked, and 
performed physical training. These items all mad the rumors not 
quite so much rumors, but more so truths.
    As I previously stated, regardless of any suspicions of 
hazards to our health at the time, we knew we had a job to do 
and that we had to support war fighters down-range. So, we were 
working in real time. We drove on and continued our mission. We 
stomped through the dust that went up in our faces in the 
summer. We waded through the mud caused by the flooding in the 
spring and fall. We tramped through the snow in the winter. 
Then we redeployed and came home, expecting to go back to life 
as usual.
    I was diagnosed with thyroid cancer in 2014. My thyroid and 
partial parathyroid were removed. I have no family history of 
cancer. I had genetic counseling done and they specifically 
stated that the cancer did not fit a pattern suggestive of a 
hereditary cause. Thyroid cancer is caused by exposure to high 
levels of radiation or a family history and family history had 
been ruled out. The timeline for the symptoms and diagnosis are 
directly in line with my deployment to K2.
    I am in receipt of V.A. benefits; however, none of the V.A. 
benefits I receive compensate for cancer. They claim that since 
my thyroid was removed the cancer has been fully cured. They 
claim that since my--however, I do have chronic kidney stones. 
When my thyroid was removed they also partially removed my 
parathyroid. Every patient with kidney stones should be tested 
for a problem with their parathyroid; however, the V.A. has not 
addressed my parathyroid, nor screened them for cancer.
    I also do not receive any type of V.A. rating for the 
chronic kidney stones, although I have submitted and 
resubmitted claims over and over again. Kidney stones are 
medically known to be caused by thyroid issues. It's not--
it's--it's noted on each declination that is not a service-
connected disability. I also get daily headaches that to date 
have not been diagnosed. I receive a higher rating for the 
headaches than I do for cancer. I receive a 30 percent rating 
for headaches and a 0 percent rating for cancer, 0 percent.
    I found the K2 Toxic Exposures group a couple years ago. I 
joined them and I volunteered to help reaching out to K2 
veterans to gain--to help gain insight into how many more were 
having issues related to deployment at the base. It was eye-
opening once we began compiling the data. Absolutely eye-
opening. I knew there had to be others, but so many. I had no 
idea. Soldiers, Marines, airmen, contractors, and family 
members are self-reporting illnesses and fatalities to us. To 
date we have 1,341 self-reported exposure-related illnesses and 
30 reported deaths.
    However, we have been told that empirical data is not 
relevant for V.A. purposes. To date the V.A. has not contacted 
me with a questionnaire asking me about my K2 illnesses. So, in 
my opinion this empirical data is the only data being compiled 
and the V.A. should be asking us for our data, instead of 
criticizing or downplaying our efforts.
    I would like the V.A. administration to address this issue 
and make the effort to attain a full list of members that were 
deployed to K2, then contact each and every one on this list to 
get them in for a full physical and workup. If any exposure-
related health conditions are discovered, members should 
receive lifelong healthcare for treatment and the appropriate 
V.A. disability rating. For previously recognized illnesses, I 
feel the V.A. should also give full, lifelong treatment and 
accurate disability ratings.
    We would also like the DOD to release any and all documents 
that are relevant to conditions at K2. Thank you for allowing 
me to share my story. Due to time restraints, I was not able to 
share my entire story with you, but my written testimony does 
provide more insight into the conditions at K2. I trust that 
you will take the appropriate actions to provide the care that 
we desperately need. Thank you.
    Mr. Lynch. Thank you. Now before we turn to questions, I do 
have a request for unanimous consent to enter into the record a 
statement from Douglas R. Wilson of Florida, a retired 
Technical Sergeant with the U.S. Air Force. Mr. Wilson served 
at K2 for three months in late 2001 and early 2002. He was 
diagnosed with primary central nervous system lymphoma in 2016. 
Without objections, it will be entered into the record.
    Mr. Lynch. I would also like to ask unanimous consent to 
enter into the record a written statement from Mark T. Jackson 
of Florida. Mark was deployed to K2 with the United States Army 
from July 23 through April 24. Without objection, his testimony 
shall also be entered into the record.
    Mr. Lynch. I now recognize myself for five minutes for 
questions. Again, thank you for your willingness to come before 
this committee on behalf of your colleagues and your family 
members and to try to make this right. I appreciate that you 
turned your own pain and your own suffering into an effort to 
help your brothers and sisters in arms and other families that 
are similarly affected.
    We have asked for documents from DOD, Department of 
Defense, and from the V.A. But we are taking a very broad look 
at this. And I'm just curious, Mr. Widener, you know, you've 
been very active at the front end of this and Mr. Welsch as 
well, in terms of laying out what you would like to see. What 
documents do you think would be most helpful to the Committee? 
And look, if they are resisting us, we are going to have to 
create our own registry, basically, within this committee and 
just, as the evidence piles up it will be irrefutable at some 
point.
    So, you know, there is a way we can do this using the force 
and the authority of this committee to go around the D.A., 
excuse me, the DOD and the V.A., in terms of gathering 
evidence. I think that may compel the DOD and the V.A. to 
cooperate. They have indicated that they are gathering 
documents and in several months we will get those, but let's 
just say I am not encouraged by their lack of response. So, 
what do you see as the, you know, I see sort of a cross-
reference between DOD personnel that served at Karshi-Khanabad 
and then also there are probably just--there are related 
documents that the V.A. holds with respect to those individuals 
who have presented with physical illnesses that are recorded at 
the V.A.
    So, there are two bodies of evidence here, but as Ms. 
Brooks illuminates there are also others that are probably out 
there that have no direct symptoms right now. Similar to the 
woman in the family that you mentioned earlier, where, you 
know, seven years went by between the time at which they 
presented with some symptoms and then nine years later or seven 
years later there was a diagnosis. So, what are the documents 
and what is the information that you might be most helpful--
think most helpful in proving this case?
    The ultimate goal here is, to the degree that it is humanly 
possible, to restore the rights of these veterans, restore the 
rights of their families, and create a presumption for those in 
the future who might present. If they show on their record - if 
their DD-214 says I served at, you know, K2, Karshi-Khanabad - 
it would create an immediate presumption for healthcare and 
service-connected disability with the V.A. So, those are our 
goals. But what are the documents, the information you think 
that will be most helpful?
    Mr. Widener. Chairman Lynch, thank you for the opportunity, 
again, to meet with the committee and answer your questions. I 
think some of the most important documents for the commission 
and for the committee would be the Baseline CHPPM Europe 
Environmental Study that was done. I think we also have to 
identify and locate all of the environmental testing documents, 
the baseline documents. We need to be able to source the 
chemical agent and radiological testing that was done at K2 
throughout several years period. I don't know where the 
repository of this information would be.
    We do have some independent testing information we provided 
to the committee as part of our testimony. I think it's 
important, Chairman Lynch, that we realize that the U.S. 
Government has done detailed research over many decades into 
the effects, long-term effects of radiation upon service 
members beginning in the World War II era and evaluating the 
effects of--of nerve agents and mustard agents and blister 
agents upon personnel. And we also have a large body of 
existing scientific evidence, which identifies the problems 
that people encounter when they're exposed to depleted uranium, 
soluble and insoluble radiation of uranium, heavy metals, and a 
variety of different components that we are exposed to.
    I think we have to look at all the available scientific 
evidence that exists in the realm within the DOD that's been 
done by the U.S. Government, but also documents of scientific 
studies that have already been produced.
    Mr. Lynch. You have had a lot of contact with fellow 
veterans, Mr. Welsch. You as well then served at K2. Is there 
any indication that DOD did a thorough analysis on the site? 
So, I know there are scientific studies out there regarding the 
effects, but I am talking about a direct connection to the site 
there at K2. Has there been any indication that anybody was 
present or was aware of an investigation onsite at K2?
    Mr. Widener. Yes, sir. Colonel John Mulholland, who was the 
Special Operations Commander, commanded the Special Forces 
Group. You might be familiar with the movie ``12 Strong'' that 
was--that was produced about that. That occurred at K2. When 
they started discovering the same things that were troubling 
and--and were, quite frankly, frightening and shocking to the 
conventional and Special Operations Forces that were there, he 
raised the alarm to a higher chain of command. And through that 
process they ordered an environmental study, which was--
resulted in a deployment of CHPPM-Europe Medical Group that 
came out of Germany and they came there and did a detailed 
study, including testing.
    I'm in direct contact with one of the members of that test 
team. I have a list of all of the original members of that test 
team. I also have specific indication--specific information 
that indicates that the CHPPM-European--Europe Study Team 
remained at K2 for a prolonged period and continued to conduct 
testing of the--of the soils, of the water, and radiological 
events.
    Mr. Lynch. Thank you very much.
    The gentleman, Mr. Green, is now recognized for five 
minutes of questioning.
    Mr. Green. Thank you, Mr. Chairman.
    Our Nation fought in Vietnam from 1962 to 1975. As early as 
1977 cases were filed for individuals who were concerned about 
exposure to Agent Orange. It was not until 1991 that Congress 
passed an act to get something done. 1991. It wasn't until 
2019, last year, that we included the Blue Water Navy people. 
That is unacceptable.
    Men and women who raise their right hand and are willing to 
put their lives on the line for our freedom, that is simply 
unacceptable. The burn pits, we have known about them for some 
time, 2001 to really today in March 2019 there were still nine 
burn pits active. Of course, this story and K2, with the 
exposures there, with the units that were the very tip of our 
Nation's spear. These are the most elite of the elite. And I 
had the unbelievable privilege of serving in the 160th Special 
Operations Aviation, the unit that flew the ``12 Strong'' guys 
in and flew all the mission in Afghanistan and are still there 
today. I, myself, spent a little bit of time at K2 as well.
    I think many of the people in the room know that I have had 
colon cancer and thyroid cancer. Who gets two primary cancers 
at the same time, right? It is just unheard of. And when you 
look at the genetics, I too did my genetic profile at 
Vanderbilt University and I have no genetic predispositions to 
either of those cancers and no family histories. So, in a sense 
I have to kind of declare a conflict of interest in this, I 
guess, but truth be known, it shouldn't happen to me. It 
shouldn't happen to any of our warriors.
    A friend of mine, Dr. Hamada, came to me and then I met 
with these witnesses. And 7,000 warriors plus spent time at K2. 
It is time we do something. Chairman Lynch and I met and 
discussed this, and together we are going to launch, this week 
I believe, sir, the K2 Veterans Toxic Exposure Accountability 
Act of 2020. What that bill will do is set up the registry that 
is necessary, require that to be set up. It will require DOD to 
do the epidemiologic studies. And it will mandate that those 
conditions that warrant it be listed as presumptive as you have 
requested Ms. Brooks.
    It is the right thing to do. And I know Chairman Lynch put 
his information out there. I put mine out there as well, 
MarkGreen.house.gov. Anybody wants to get in touch with us can 
do that. If you feel like you were exposed and you need to get 
connected, I know there is a Facebook page and I would like to 
ask one of the witnesses or someone to now tell everybody what 
that Facebook page is so that your folks--there may be somebody 
out there who passed through K2 and isn't listed as staying 
there for very long, but were there long enough to get an 
exposure. So, if you could take the time now and let folks know 
how they can connect to your organization that is fighting for 
them.
    Mr. Widener. Congressman Green, thank you and we thank you 
for the legislation that you and Chairman Lynch are putting 
together and have introduced this week. We think it's going to 
be an important step forward.
    We have two different means by which, at present, folks can 
connect with the Stronghold Freedom Foundation. The first is if 
a member deployed to K2 or if they are the surviving spouse or 
immediate family member of someone who died from cancer related 
to K2. They can contact us by looking up the K2 Toxic Exposure 
Group on Facebook. If someone is a--just a family member, a 
friend, or maybe they just are concerned about the issue and 
would like to keep abreast of information, we have a Facebook 
page which points outward toward the public that we provide 
information to and we use this kind of as a public 
clearinghouse at this time and that is a Stronghold Freedom 
Foundation page.
    Mr. Green. Wonderful. And I will ask you in the little bit 
of time that I have remaining, and I know the answer to this 
for all of you, but we are going to need you to help us lobby 
the bill. I don't think it will take much, but help us 
communicate your story to the rest of Congress, so that 
Chairman Lynch and I can get this passed and passed quickly. 
Thank you.
    I yield.
    Mr. Lynch. The gentleman yields.
    The chair now recognizes the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Thank you. I concur with everything 
Representative Green said. Thank you. And, Mr. Lynch, thank you 
so much and, Mr. Hice, really appreciate it. I can't repeat it. 
I can just say yes. I mean, men and women in uniform they show 
up for duty and it is up to the command--it is really up to the 
military to make certain that there is not unnecessary risk, 
including health risk.
    I have got a lot of folks in Vermont, who served in--were 
exposed to burn pits. The example you gave about Agent Orange 
is just amazing. Why not have the burden of proof be on the 
government to show that it is not caused by a service-connected 
event, as opposed to put the burden on the individuals when 
they don't have any capacity whatsoever to accumulate the 
information. So, you know, I hope in this case we can move 
sooner, rather than later. It is tremendous to have this 
incredible bipartisan support on this. So, I am in total 
support of Mr. Lynch and Mr. Green, your legislation.
    I got a letter--you guys, I mean, you have suffered, and 
you know, that suffering is shared, you know. It's an honor to 
have served with someone who died having served at this 
location. Recounting all of the times they were together, all 
of the deployments they had before this and after. How they 
loved to play board games. Their families got together. I mean, 
it is everything wonderful about that cohesiveness that you 
have in the military. I am reading this and just seeing the joy 
that these families had together, not just the soldiers, but 
the partners of the soldiers and that cohesiveness. And the 
pride they had in serving their country. That's a life well 
spent. And this man died very prematurely in his 40's.
    I am with you guys. Let's give the benefit of the doubt to 
those who served. So, you know, I don't want to make you 
restate everything you said. I do want to state my enormous 
respect for you and my sorrow at your loss. And on this 
question of transparency, I just want to reiterate, why in the 
world wouldn't we be transparent. What have we got to hide? 
What is the big deal? I mean, let's get the information out 
there because we don't have this view that the commanders are 
trying to hide something really. It is just like a bureaucratic 
maw that sits on this.
    So, again, I don't really have questions. I just have a lot 
of appreciation for you. I will just join with my colleagues in 
anything that I can do to help the sponsors of this bill get it 
passed we will. But I think the point that was made, you 
lobbying, your voice matters much more than our voice. You 
know, people really here on both sides of the aisle respect 
you, respect the loss, respect the service. And you speaking to 
our colleagues, frankly, is much more powerful a voice than we 
can be. So, thank you.
    Thank you, Mr. Chairman.
    Mr. Lynch. I thank the gentleman. He yields back.
    Without objection, the gentleman from Wisconsin, Mr. 
Grothman, shall be permitted to join the subcommittee on this 
and will be recognized for questioning the witnesses in due 
order. OK.
    Mr. Hice. Thank you, Mr. Chairman, and again, for the 
spirit of this committee.
    Again, we thank you for your stories and coming forward on 
this. And we do hear you. I was interested with, Ms. Brooks, 
what you shared with the McClatchy Investigation coming out. 
One of the things that was mentioned in there was that there 
were things wrong at K2 and that was one of the things that 
your husband said immediately upon coming home. Could you just 
elaborate a little bit more? What did he say was there?
    Ms. Brooks. So, while Tim was deployed he'd sent--he wrote 
letters, but he also had the opportunity to email. There was 
one email in particular, where he wrote about the black gunk 
and the dust. Now I'm taking care of four children. I read it, 
filed it away, and he came home. He was a 6-foot, 5-inch, very 
strong, tall man. He looked fine when he came home. And life 
returned to normal, as normal as it can on an Army post.
    He went off to work one day, came home, and said that he 
had gone to--had been at, I don't know, some type of post-
deployment briefing. I believe he said the Fort Drum Theater, 
and he--he was really upset. He said, I've been exposed to some 
really bad stuff. I knew--I mean, my heart dropped.
    Mr. Hice. Did he say that because of the way he was feeling 
or what he had heard?
    Ms. Brooks. No, no. No, no. He wasn't feeling anything that 
I know of at that----
    Mr. Hice. What made him say he was exposed to really bad 
stuff?
    Ms. Brooks. Because they told him that.
    Mr. Hice. OK.
    Ms. Brooks. Yes.
    Mr. Hice. So, they were acknowledging it?
    Ms. Brooks. They were acknowledging it.
    Mr. Hice. OK.
    Ms. Brooks. And from what I remember, he had signed some 
type of form. They took it. We went on--on with life, and 
eventually, he started having a lot of headaches. He was 
presenting really, really--he was really tired. And 132 
Infantry was preparing to go to Iraq, I think, Weapons of Mass 
Destruction/Saddam Hussein, correct.
    He just wasn't himself. He was more irritable. Just not a 
lot of patience. And he was an incredibly loving father, who 
took time out to hang with the kids all the time, playing 
baseball, you name it, in the yard, it didn't matter. He came 
home from work, he hugged them, he loved them. He told them he 
loved them. Told, you know, I mean, just--but he was taking 
naps, et cetera.
    Then the collapse at the----
    Mr. Hice. OK. Let me--thank you for that. Let me ask Mr. 
Welch and Mr. Widener, both of you or either of you. During 
your cancer treatments, did any doctor at any time discuss with 
your deployment to K2?
    Mr.Welsch. I--I brought it up and I brought it up to my 
civilian endocrinologist.
    Mr. Hice. Did they say anything?
    Mr. Welsch. No.
    Mr. Hice. So, you brought it up and they just----
    Mr. Welsch. I--I brought it up and she wrote me Nexus 
Letter to provider, and nothing was done with it, basically.
    Mr. Hice. Mr. Widener.
    Mr. Widener. Congressman Hice, I--I brought that up at--
while I was still on active duty. I remained on active duty for 
some year, until I was medically required--retired, due to a 
constellation of illnesses, which made me unfit for military 
duty. The standard response that I received from a variety of 
doctors ranging from Walter Reed Medical Center to three of 
four other Air Force, Army, and Navy bases was basically looks 
of astonishment.
    I was offered a psychiatric evaluation by my internal 
medicine primary care doctor because it just--she thought that 
I was one of those people that wear a tinfoil hat, you know, 
because I was claiming that I had been someplace where a 
nuclear weapon--a nuclear accident had occurred. That I'd been 
exposed to nerve agent, to mustard agent. That I'd, you know, 
had been in an area covered with rocket fuel or, you know, 
depleted uranium. And mostly, for the most part, while on 
active duty nobody really cared to ask anything. I offered to 
show documents. I literally took a binder into many doctors, 
you know, at Davis-Monthan Air Force Base, at Langley Air Force 
Base, at Fort Story Virginia, and at Portsmouth Naval Medical 
Hospital and Walter Reed Medical Center. They really did not 
seem interested.
    I attempted to--to place the--to take and replace the--the 
post-deployment health surveys I had from my deployments, which 
I have all the copies of, and the Nexus letters that were 
produced by a variety of 20 Special Forces Group doctors and 
surgeons, back into my records. And the Department of Defense 
SG Department for all services essentially refused to allow me 
to put medical evidence into my medical records.
    I was fortunate though, Congressman Hice, because a good 
number of my conditions occurred on active duty, so I was able 
to get service--or service connection for the conditions, but I 
have no service connection to Karshi-Khanabad.
    Mr. Hice. Thank you.
    Mr. Lynch. I am going to recognize myself for another five 
minutes.
    So, Mr. Widener, you have had some dialog back-and-forth 
with the V.A.; is that correct?
    Mr. Widener. Chairman Lynch, that's correct.
    Mr. Lynch. Yes. It would seem to me that--and is--may I 
ask, is there a roster that we have now of service members that 
have--that served at K2?
    Mr. Widener. Sir, to my knowledge, there is no overall 
roster and that would be a problematic thing for the Department 
of Defense to even source.
    Mr. Lynch. Yes.
    Mr. Widener. A large number of the initial forces that 
flowed into Karshi-Khanabad were Special Operations Forces, 
that were, you know, belonged to U.S. Special Operations 
Command.
    Mr. Lynch. Sure. Well, that stuff is in----
    Mr. Widener. Well, and that--and that, and with the 10th 
Mountain Division of the initial--the initial conventional 
forces that rolled in, Chairman Lynch, all those people rolled 
in and then departed K2 well before there was any type of Army 
Personnel Support that was available at K2 to document and 
track their--their comings and goings. Then you had the--the 
large number of transient air crews and folks that were just 
transiting in and out of the--the theater and in-and-out of 
Afghanistan.
    Mr. Lynch. Yes.
    Mr. Widener. I have a case, Chairman Lynch, of a young 
lady, just retired from the Air Force. She's out in Colorado 
Springs. She deployed through K2 back and forth over for an 
aggregate total of less than three weeks on the ground. She 
contacted me last month. She has been diagnosed with two 
different types of cancer. She has gynecological cancer that is 
metastatic. She also has a primary tumor cancer of a different 
etiology in her upper body, which is also metastatic. And her 
doctors were faced with trying to identify which cancer to go 
after first.
    She's a young woman. She has kids. Her husband's in the 
Army and they just don't know what they're going to do. She's 
not service connected because it happened after her service.
    Mr. Lynch. Yes. Let me ask, so normally in tracking the 
service or the deployments of individual service members we can 
look at the DD-214. It will say where they were deployed to, if 
they were actually stationed there. But in her case, if she was 
flying in-and-out it may not show up; is that correct?
    Mr. Widener. Chairman Lynch, my understanding is that--that 
the Department of Defense does capture that data in some 
format.
    Mr. Lynch. OK.
    Mr. Widener. However, on my Duty Form 214, sir, I've been 
to over a hundred countries, I've been deploying real world 
from the Iran/Iraq war to--until 2006. On my Duty Form 214 I 
have not one single deployment listed.
    Mr. Lynch. Wow. Because I am trying to connect the dots 
here, in terms of building up a roster. Either going to the 
V.A. with that roster and saying, okay, we have these 
individuals, who were on the ground at K2 at some point in 
their deployment. At first blush, I don't even need to know who 
they are, right? I want the medical records of this roster of 
people. You can redact them. Don't even tell me which record 
belongs to which individual, but if I could get the evidence 
that, you know, there are cancers present and other illnesses 
present from this group, you could sort of build a case without 
needing the identities of the individuals because there are 
some privacy issues there at the V.A. They won't share with 
Congress or others.
    But, you know, there's got to be a way to compile the 
evidence here to get to a point where we prove the case and 
they accede to it. You know, that would have to be the process 
here. I think we need to compel them; you know.
    Mr. Widener. And, Chairman Lynch, if I might, sir. I was a 
Theater Operations--a Theater Special Operations Mission 
Planner for a good number of years. My expertise and knowledge 
of this field that probably the very best source of information 
that could be available would be detailed records and personnel 
status reports as part of situational reports that were made on 
a daily basis to U.S. Central Command.
    Mr. Lynch. Right.
    Mr. Widener. All of the--all the--all of the Special 
Operations Forces that flowed in and out of the theater, there 
should be detailed records through PERSTATs, and daily 
situation reports through U.S. Special Operations Command 
Central and also, the Special Operations Command at Stuttgart, 
Germany.
    Mr. Lynch. Uh-huh.
    Mr. Widener. SOCEUR.
    Mr. Lynch. Oh, we intend to do a full-spectrum 
investigation, including, you know, going into Uzbekistan. K2 
is not an easy place to get to, but we can do it, of course. 
And just try to use every source of information to figure out 
what is the status right on the ground at K2. I understand that 
that base is not being actively used, at least not that part of 
the base is not being used anymore. But, you know, trying to, 
you know, do a little forensic investigation with respect to 
what is actually in the soil there at K2. I'm sure the Uzbek 
government would not be happy about that, but I think there is 
probably pressure that we can apply.
    I think Mr. Green, the gentleman from Tennessee, had some 
questions and I yield to him for five minutes.
    Mr. Green. Thank you, Mr. Chairman. First, I was going to 
answer your question about those flight crews. There are flight 
logs. Every aviator has to have a flight log and they operate 
that and that's maintained in their flight record and, you 
know, every aviator has all that. So, we can access those 
people who go in and are there temporarily and fly on.
    The one comment I wanted to make is, you know, oftentimes 
we, in professional hazard exposures, you know, you think about 
a firefighter, who is a first responder and gets a needlestick, 
and we want to include that particular illness that can 
potentially come from that needlestick as a job-related hazard 
and make sure that it is covered under their insurance program 
and things like that. Oftentimes those can be acquired many 
different ways, but because of the fact that it can be acquired 
in that work environment it should be reimbursed. It should be 
a part of what is allowed to be treated for that individual. 
You have to give the benefit of the doubt to the firefighter or 
whomever.
    And in this case, you know, it is our warriors. So, I 
wanted to use that corresponding to further reinforce the fact 
that these exposures they were--they happened, and therefore, 
the diagnoses that come from them, brain cancer, colon cancer, 
thyroid cancer, whatever they are and they may very well be of 
other etiologies, but the fact that it is in this--that this 
exposure occurred, we have to give the benefit of the doubt to 
the warrior. And these presumptive diagnoses need to be 
included and that is why Chairman Lynch and I have that in our 
legislation. So, I just wanted to throw that analogy out there 
and make sure that it is on the record.
    Again, Chairman Lynch, I want to thank you for allowing 
this hearing to happen and for your participation in the 
legislation.
    Mr. Lynch. I thank the gentleman.
    The chair recognizes the Ranking Member from Georgia, Mr. 
Hice, for five minutes.
    Mr. Hice. Thank you. I have just got kind of a question A 
and B, I guess you can say.
    Were any of you or Tim denied specific tests or treatments 
because K2 is not qualified or recognized? You were?
    Mr. Widener. Chairman Hice, I was denied any testing of any 
condition that might relate to being at K2. I am fortunate that 
in my Special Operations career I was deployed into other 
operational theater environments, so as a result of that I--
I've got, you know, secondary depleted--depleted uranium 
exposure to the Gulf War and--and also to the Operation Iraqi 
theater or Operation Iraqi Freedom theater. I was able to take 
and obtain some testing for myself for other locations and 
other combat theaters besides K2. But anything--anything--I 
have the same experience that everybody else does.
    You can't get tested for depleted uranium. There is not an 
option. We are specifically prohibited from being able to 
register and sign up for the Burn Pit Registry, even though we 
had a burn pit that operated 24/7. We had a Soviet air chemical 
factory that we don't know what it produced that was three 
miles from us and we were in the smoke plume and the 
particulate plume that--that came over our camp and settled 
down inside the berm every single day.
    We're not able to take a sign up on the Toxic Exposure 
Registry because K2 had no known toxic hazards. And we're not 
allowed to be evaluated for any type of radiation exposure.
    Mr. Hice. So, what would have been different had K2 been 
designated as a site requiring testing? Would things have been 
different when you went to the V.A.?
    Mr. Widener. Congressman, I think the--I think that would 
absolutely be a true statement for all of our cohort. If the 
hazards had been identified, then the government would have had 
to stipulate that the primary conditions and also the 
comorbidities that exist with, you know, the exposure to the--
the elements that were present at K2 were, you know, as, you 
know, were as likely as not caused.
    One thing I've heard several times on this--in this 
wonderful committee meeting is that, you know, you guys are 
interested in insuring that the veteran gets the benefit of the 
doubt. Sir, I'm a layman, but it's my understanding that it is 
Federal law with a 38-CFR Part 4 that in the cases of--of 
illnesses and when the veteran can take and provide a 
preponderance of--of--of scientific and medical evidence, that 
the benefit of the doubt goes to that veteran. But that's not 
what we experience with the V.A.
    Sir, I have a Mr. Doug Wilson, who's a retired Special 
Operations Maintenance person. Doug Wilson contracted an 
extremely rare type of brain cancer. His cancer is so rare that 
the Mayo Clinic system stated that they had only seen his 
particular type of cancer twice in their history. They examined 
his records and his list--his exposures that he had been 
exposed to and they unequivocally, affirmatively stated from 
the Mayo Clinic that his cancer was, in fact, caused by 
exposures at K2.
    He had had his skull sawn open. Gravely, invasive, brain 
surgery twice. He's crippled. His arms and his legs, they flail 
about. He has no ability to take and--and file for V.A. 
benefits. The V.A. continually denies his cases. His--his wife 
is a schoolteacher, an elementary school teacher in the state 
of Florida and they struggle. The reason that Mr. Wilson was 
unable to be present to testify in person before you is because 
they're scrimping and saving every penny they have because his 
wife requires a surgery, but he's uninsurable. And as a result 
of that they have to just save the money up. Even though--even 
though he has direct, scientific, medical evidence linking his 
cancer to K2, the V.A. unequivocally, repeatedly has denied his 
claims.
    Mr. Hice, I'd like to let you know something that's just 
heartbreaking. I spent a lot of time crying about this when I 
found out about it. Mr. Wilson is, you know, crippled and he's 
mostly confined to a wheelchair. His conditions are never going 
to improve for the rest of his life. He doesn't have a vehicle 
that's adapted for his wheelchair and in order to get to 
physical therapy appointments, which he must attend three times 
a week, and those are not restorative things, those are--those 
are just where they have to exercise his limbs. They have to 
exercise his muscles to try to maintain the status quo that at 
least where he is right now.
    In order to get to that, Chairman Hice, he rides a battery-
operated, mobility chair a mile-and-a-half one way on city 
streets in a town with very, very few sidewalks. Has to cross 
Florida highways in the blistering sun. In the brutal cold 
winds that blow off of Choctawhatchee Bay, in the rain. And 
once he gets there they take his body and they put it through 
the paces. And quite frankly, he's in pain every time he 
leaves. But he has to put himself back onto his battery-
operated chair and ride it a mile-and-a-half over every cement 
crack, over every curb, and back down the streets to get home 
three times a week.
    And his--his battery-operated, mobility chair, which by the 
way he bought with his own money because he's not entitled to 
anything like that, it's broken down before leaving him 
stranded on a highway trying to contact his wife or someone to 
come get him off the road. Because it's not like he can get out 
of it and walk away. This I believe, personally I believe, this 
is criminal and should not occur.
    Our Special Operations warriors and our conventional forces 
who went out after 9/11 and fought to defend the cause of 
freedom and further the interest of the U.S. Government, we 
ought to be cared for.
    Mr. Hice. Absolutely. Well, again, I wouldn't consider you 
or any of you laymen on this issue. And again, I want to thank 
you for bringing your story. And we will take the ball and all 
of us and do what we can to get across the finish line with 
this. And I thank you.
    Mr. Lynch. The gentleman yields.
    I would like to add that the reason that we are trying to 
get a presumption created, so that the only thing a service 
member would have to show is that he or her was at K2. And that 
would end the inquiry on the part of the V.A. Once that was 
demonstrated, no more evidence needs to be, you know, that is 
the effect administratively on behalf of the V.A. It's just one 
of those that is an automatic. You were at K2, service 
connected. We just--we are not going to require any further 
medical tests. We are going to presume that the connection was 
there and that it was service related.
    So, that is the success of that because we don't want 
people to have to jump through all those hoops to try to prove 
a case individually, one at a time. It is just not going to 
work that way. That is not for the benefit of the families that 
are going to need care. So, that is part of our legislative 
solution there as well.
    Unless--let me ask if any of you have anything additional 
that you would like to add to your testimony before we conclude 
here?
    Mr. Widener. Chairman Lynch, I'd like to take and just 
share a macabre fact. OK? And it's going to sound a little bit 
odd and bizarre and it took me a lot of years to come to grip 
with it. The Federal Government had manufactured, you know, 
danger and warning signs for chemical weapons that were 
unexploded and leaking and damaged chemical munitions, which 
lay in a field literally across a small, dirt road from where 
we lived and worked. And then also a large, radiation area, 
which existed, which part of that higher radiation area 
actually extended into the life support area of our--of our 
tent city.
    But, you know, everybody that went to K2--I was not one of 
those people, but everybody that wen to K2 went to those signs 
and they had their pictures made. And the reason all of us did 
that and there are thousands of pictures of us standing next to 
the yellow and the white signs, but everybody knew that at some 
point we would need direct evidence to prove that we had been 
there and that we'd been exposed to what we were exposed to 
because people think we're crazy when we tell them what 
happened.
    Mr. Lynch. Thank you. OK.
    Mr. Welsch. This was initially personal for me, as I stated 
in my testimony, until I found the group. And then once we 
began compiling everything it became not so much personal. What 
really drove it home for me and--and made it gut wrenching was 
when I found that the group that I deployed with was coming 
down with illnesses.
    For example, the commander of my group, Lieutenant Colonel 
James Donahue has cancer. The operations officer of my unit has 
cancer. Several--just that small group of people that I was an 
augmentee--attached to, just that small group there are several 
of them coming down with cancers, let alone the large picture 
of--of the--the numbers that I'm keeping. And we--we beg for--
for assistance to--to get this taken care of.
    Mr. Lynch. You got it.
    Ms. Brooks, you all set?
    Ms. Brooks. I just have something to add, that----
    Mr. Lynch. Sure. Please.
    Ms. Brooks [continuing]. I do wonder how many have already 
died and are possibly not going to be counted. So, I think that 
needs to be taken into account and then when that accounting is 
taking place, you know, restorations of the families who have 
lost their loved ones, you know, in connection to K2 and toxic 
exposure. Thank you.
    Mr. Lynch. Thank you.
    I would like to thank our witnesses for their testimony 
today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions to the 
witnesses, to the chair, which will be forwarded to the 
witnesses for your responses.
    And I simply ask if those questions are transmitted, I ask 
our witnesses to please respond as promptly as you are able. 
Again, I want to thank you for the powerful testimony you 
provided today and for the service that you have rendered to 
other families in a similar situation and also to your brothers 
and sisters in uniform.
    This hearing is now adjourned.
    [Whereupon, at 1:49 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
